<html>
<title> - COMPREHENSIVE WATERSHED MANAGEMENT AND PLANNING: DROUGHT-RELATED ISSUES IN THE SOUTHEASTERN UNITED STATES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
COMPREHENSIVE WATERSHED MANAGEMENT AND PLANNING: DROUGHT-RELATED ISSUES 
                   IN THE SOUTHEASTERN UNITED STATES 

=======================================================================

                               (110-106)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-492 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
VACANCY

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               CONNIE MACK, Florida
STEVE KAGEN, Wisconsin               JOHN R. `RANDY' KUHL, Jr., New 
JERRY MCNERNEY, California, Vice     York
Chair                                CHARLES W. BOUSTANY, Jr., 
ELEANOR HOLMES NORTON, District of   Louisiana
Columbia                             JEAN SCHMIDT, Ohio
BOB FILNER, California               CANDICE S. MILLER, Michigan
ELLEN O. TAUSCHER, California        THELMA D. DRAKE, Virginia
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A ARCURI, New York             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)


























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Begos, Kevin, Executive Director, Franklin County Oyster and 
  Seafood Industry Taskforce and Riparian County Stakeholder 
  Coalition......................................................    10
Boyd, Hon. Allen, a Representative in Congress from the State of 
  Florida........................................................     5
Burch, Tim, Board Member, Georgia Peanut Commission..............    10
Feldt, J. John, Hydrologist-in-Charge, National Weather Service, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................    30
Hamilton, Sam D., Regional Director, Southeast Region, U.S. Fish 
  and Wildlife Service, Department of the Interior...............    30
Hunter, Robert J., Commissioner of the Department of Watershed 
  Management, City of Atlanta....................................    10
Johnson, Jr., Hon. Henry C., a Representative in Congress from 
  the State of Georgia...........................................     8
Lewis, Hon. John, a Representative in Congress from the State of 
  Georgia........................................................     4
Schroedel, Brigadier General Joseph, Commander, South Atlantic 
  Division, U.S. Army Corps of Engineers.........................    30
Weaver, Jess D., Regional Executive, Southeast Area, U.S. 
  Geological Survey, Department of the Interior..................    30

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Boyd, Hon. Allen, of Florida.....................................    44
Carnahan, Hon. Russ, of Missouri.................................    47
Costello, Hon. Jerry F., of Illinois.............................    48
Everett, Hon. Terry, of Alabama..................................    50
Johnson, Jr., Hon. Henry C., of Georgia..........................    57
Lewis, Hon. John, of Georgia.....................................    59
Mitchell, Hon. Harry E., of Arizona..............................    61

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Begos, Kevin.....................................................    63
Burch, Tim.......................................................    68
Feldt, John......................................................    73
Hamilton, Sam D..................................................    80
Hunter, Robert J.................................................    92
Schroedel, Brigadier General Joseph..............................   202

                       SUBMISSIONS FOR THE RECORD

Westmoreland, Hon. Lynn A., a Representative in Congress from the 
  State of Georgia, report on water resources programs in Atlanta    22

                        ADDITIONS TO THE RECORD

Apalachicola Riparian County Stakeholder Coalition, David McLain, 
  Coordinator, written statement.................................   210
Water Resources Coalition, written statement.....................   213

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  HEARING ON COMPREHENSIVE WATERSHED MANAGEMENT AND PLANNING: DROUGHT-
            RELATED ISSUES IN THE SOUTHEASTERN UNITED STATES

                              ----------                              


                        Tuesday, March 11, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. I would like to call the Subcommittee to order 
and immediately apologize for being late.
    Today, we will be holding a hearing on Comprehensive 
Watershed Management and Planning and the Drought-Related 
Issues in the Southeastern United States.
    As many of you know, the Chairman is unable to attend this 
morning's hearing because he is undergoing a medical procedure. 
I would like to ask, therefore, for unanimous consent that his 
statement along with that of any other Members of the Committee 
be entered into the record.
    Ms. Johnson. It is a Committee practice not to ask 
questions to the Members, and I request unanimous consent that 
Congressman Westmoreland can sit in the Committee.
    I, first, want to also welcome Mr. Boozman who is the new 
Ranking Member. I am delighted to have him; he is from 
Arkansas. I have worked with Mr. Boozman on numerous occasions, 
and I look forward to a productive relationship on this 
Committee.
    I would like to also acknowledge Congressmen John Lewis and 
Hank Johnson as well as other Members of the Georgia 
Congressional delegation for requesting the Subcommittee to 
hold this hearing on the southeastern drought. This group is 
all too aware of the scarcity of water that grips that region 
and, ultimately, the country and of the need to resuscitate a 
dialogue to resolve the ongoing disputes over water resources 
between Georgia, Florida and Alabama.
    Congressman Allen Boyd of Florida will also provide 
testimony today on the impacts of the ongoing water dispute in 
his district.
    So, thank you all for being here and holding this hearing 
on drought issues in the southeast and the need for proactive 
water resources management.
    I want to emphasize that the road to an equitable solution 
lies not in the courts but at the negotiating table. I would 
encourage the governors of Georgia, Florida and Alabama to 
return to their talks and, once and for all, resolve the water 
disputes that are impacting the region so dearly.
    I was planning to have said this to the governors myself 
but, to our surprise, they did not come. I think all three of 
them declined the invitation to testify at this hearing. Given 
that the Tristate Drought Agreement negotiations recently 
collapsed, I am very disappointed that the governors would 
neither appear themselves or send any member of their staff to 
testify today.
    Alabama, Florida and Georgia have been fighting each other 
and the Federal Government in the courts since 1990 with the 
collapse of talks that had been facilitated by the U.S. 
Department of Interior. It, unfortunately, seems that the 
rivers will run even drier as this drought continues, and 
unending litigation will flow on and on.
    While they did not show up today, an ACF compact can be 
reached if the governors of these three states demonstrate the 
commitment to arrive at an equitable arrangement_but first they 
must show up. Effective water resources management in the 
southeast requires an effective partnership between the Federal 
and State governments. In periods of drought, this is even more 
the case.
    The Federal Government can provide a host of services to 
the States. These range from management of facilities to 
drought forecast and technical assistance to facilitating 
negotiations as Interior Secretary Kempthorne did earlier this 
year.
    However, for this partnership to be effective and for these 
services to be utilized, the States must embrace them. 
Similarly, for Federal services and expertise to be useful for 
the States, the Federal Government must encourage negotiations 
and offer services before a drought takes place. Otherwise, we 
will just end up behind the curve, setting ourselves up for 
more fights in the courts.
    This point is underscored by the fact that river basins 
across the southeast are under stress as a result of ongoing 
drought. The Catawba and Broad River Basins in North and South 
Carolina, the Neuse River Basin in North Carolina, and basins 
throughout the Tennessee Valley are experiencing drought 
conditions. All of these require steadfast and determined work 
by the States and Federal agencies working in concert with one 
another.
    Along these lines, this Subcommittee looks forward to the 
future when it will explore new watershed approaches and 
strategies to water quality protection and water resource 
management.
    I welcome our witnesses here today, and I now yield to Mr. 
Boozman for his opening statement.
    Mr. Boozman. Thank you very much, Madam Chair, and I 
certainly look forward to working with you and your staff and 
appreciate your leadership.
    While I appreciate the Subcommittee holding a hearing on 
this very important issue, I hope that today the Committee will 
focus on solutions to the problem rather than just describing 
the ongoing controversy in one watershed.
    Congress begins the hard work of tackling one of the most 
important and difficult environmental and economic issues 
facing our Nation, ensuring we have an adequate supply of clean 
water. We need water for our homes, farms and factories. Water 
also supports navigation, generates power and sustains our 
environment. Communities cannot grow or even exist without 
adequate water.
    As we enter the 21st Century, demands for water are growing 
and are outstripping supplies in many areas, both in the west 
and east, leading to disputes over water supply and allocation. 
The drought of 2007 in the east has made it clear that while 
water may be abundant in many areas, it is not limitless and 
even our Nation's most water-rich regions can run dry.
    Between 1990 and 2000, water use in Georgia increased 30 
percent, and officials are still grappling with how to provide 
for a projected doubling of demand over the next 30 years.
    The drought has had real-life consequences as well. 
According the Metro Atlanta Landscape and Turf Association, 
almost 14,000 in landscaping-related industries have lost their 
jobs in Georgia alone.
    Policy makers can no longer ignore this issue. We need to 
start planning for the future and help start that planning 
process by looking at our Nation's available water supply and 
the projected demand for water in the future.
    One way to begin is for this Committee to favorably report 
H.R. 135, the 21st Century Water Commission Act as written by 
our colleague from Georgia, Mr. Linder. We have passed this 
legislation in overwhelming fashion in each of the last two 
Congresses, and we should do it again in the 110th Congress.
    Another thing we can do is have a hearing to look for ways 
we might be able to expand or adapt existing Federal services 
in a way that would encourage States and regions to engage in 
long-term water management planning. The State of Texas is 
widely recognized as having one of the best water planning 
approaches in the Nation, yet we are not hearing from them 
today. Let's hear from their experience and see what we can 
learn.
    In addition, the Tennessee Valley Authority recently 
updated their reservoir operations manual and has proven to be 
very effective in addressing drought in the Tennessee Valley. 
Let's hear from them and other Federal agencies to see what we 
can learn.
    Ultimately, States have the primary role in addressing 
water supply issues, but Congress needs to begin laying the 
groundwork to ensure we are fulfilling our obligations by 
requiring the Federal Government to operate in a coordinated 
and efficient manner to guarantee an adequate and safe water 
supply for the 21st Century.
    While I wish we were discussing solutions and I hope we 
will discuss solutions today, I really look forward to hearing 
from our witnesses.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you.
    Are there any opening statements?
    Okay, we will go right to our witnesses.
    We are pleased to have a very distinguished panel of 
witnesses on our first panel this morning. First, we have 
Congressman John Lewis of the 5th District of Georgia. Next, we 
have Congressman Allen Boyd, the 2nd District of Florida. Our 
final witness on the first panel is Congressman Hank Johnson 
from Georgia's 4th District.
    Your full statements will be placed in the record. We ask 
that the witnesses try to limit their testimony to five minutes 
oral summary of their written statements as a courtesy to other 
witnesses.
    We will continue to proceed in the order in which the 
witnesses are listed on the call.
    Congressman Lewis.

  TESTIMONY OF THE HONORABLE JOHN LEWIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Lewis. Thank you very much.
    I would first like to take this opportunity to thank my 
good friends and colleagues, Chairwoman Johnson and Ranking 
Member Boozman, for agreeing to hold this important hearing.
    Georgia is in crisis, Madam Chairwoman, and I want to tell 
you how much I appreciate your Subcommittee's attention to this 
important matter. Georgia is going through a harsh drought. The 
lack of water has hurt the environment, hurt the local economy 
and disrupted the lives of Georgia citizens.
    I will continue to work with leaders in Atlanta, across 
Georgia, throughout the southeast and in Washington to protect 
our vital water supply. Water is the most essential resource 
that we have. Water is necessary to survive. If you don't have 
water, you don't have much of anything.
    What we have with today's hearing is an opportunity, an 
opportunity to share on record and in the public's eye how our 
water is actually being distributed, why reserves in Lake 
Lanier continue to be depleted and where negotiations between 
Alabama, Florida and Georgia went wrong.
    I am very disappointed that the governors from these three 
States declined your invitation to appear here today and 
explain and discuss how, after 5 months of negotiations, 
discussions were allowed to collapse. The States play such a 
key role in these issue, and the fact they would choose not to 
come here today and take part in this dialogue is upsetting.
    Today, we lay out for the public to see what is really 
going on and how our most precious resource is being allocated. 
We have called the Federal agencies who manage our water here 
today to testify, to explain to us how water reserves have 
fallen to such a dangerous level.
    Yet, we also have invited them here to ask the questions: 
Are the resources of your agencies being utilized by the 
States? Are State, local and Federal agencies and officials 
working together to the fullest extent possible? And, finally 
to ask them, what needs to change?
    One area where change is long overdue concerns the outdated 
water control manuals that govern water released from Georgia's 
key reservoirs. These manuals are not meeting the needs of 
Georgia's citizens. It is unacceptable that such important 
plans are over 40 years old. Finally, after all of these years, 
the Army Corps has begun the process of updating these 
important manuals for both the ACF and the ACT river basins.
    Unfortunately, this process will take at least three years 
to complete, allowing for another three years of mismanagement. 
This three years timetable does not even take into account the 
politically motivated, obstructionist language in the Energy 
and Water Appropriations Bill which prohibits the updated 
manuals from being implemented.
    The time is now. We cannot afford to wait any longer. We 
need these changes.
    It is clear that our water policy is flawed. Our water 
policy is reactive. Water is too precious a resource not to 
have a long-term plan. Water management issues must be agreed 
upon before we face the type of crisis we are in today.
    The implementation of the new manuals by the Army Corps is 
a key component, but not enough. This will only change how the 
Army Corps manages their own projects.
    Madam Chairwoman and Members of the Committee, we need to 
take a step back. We need to see our water issues in the larger 
picture. We need a comprehensive watershed management study of 
the entire southeastern United States.
    I plan to introduce legislation that would do just that. 
The current piece-meal approach to watershed management does 
not work. Later today, I will introduce legislation that will 
direct the Army Corps of Engineers to study and develop 
recommendations to address current and future water needs in 
the southeastern United States.
    It is important to look at the water demands of Georgia, of 
Florida, of Alabama as individual States from the perspectives 
of the individual stakeholders, but this narrow-minded 
perspective is not enough. Water transcends State borders and 
political boundaries.
    We need to stop trying to find winners and losers and do 
what is right, what is necessary to work together. I hope this 
hearing serves as a new beginning in open and productive 
negotiations that bring everyone together to meet the long-term 
needs of the entire southeastern United States.
    Madam Chairwoman and Members of the Subcommittee, I want to 
thank you for bringing us here together and holding this 
hearing.
    Ms. Johnson. Thank you very much.
    I now welcome Congressman Allen Boyd from Florida's 2nd 
District and thank you for testifying today.

  TESTIMONY OF THE HONORABLE ALLEN BOYD, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Boyd. Chairwoman Johnson, Ranking Member Boozman and 
Members of the Subcommittee, thank you very much for convening 
this hearing on this most important topic.
    I apologize for my voice, but that can't be helped. Maybe 
some good water will help fix it.
    I listened very carefully to both of your opening comments, 
and I want to say that both of you are right on. Long-term 
planning is the only solution to this very severe problem that 
we have. We don't necessarily have to plan for stormy times, 
but we do have to plan for droughts, and your comments in your 
opening statements were right on.
    For almost 20 years, the Apalachicola-Chattahoochee-Flint 
water sharing disagreements have presented numerous challenges 
to the local, State and Federal officials. In order for us to 
responsibly address this issue, we must look at the bigger 
picture and tackle both short-term and, as you described, long-
term problems.
    My testimony before the Subcommittee today will focus on 
the need for the States to plan for their own water needs which 
Georgia has just only now begun.
    I have been involved in the Apalachicola River Basin issues 
along the Florida coast for all of my 19 years in public life. 
I have worked closely with the water management districts of 
Florida, especially as they began to focus on regional water 
supply needs in the late 1970s when water supply issues in the 
western panhandle were very severe as a result of the 1977 
drought.
    When Florida chose to focus on these water issues over 30 
years ago, the Florida legislature created five water 
management districts by a State constitutional amendment. 
Actually, they were created in the constitution, and they were 
given broad statutory authority by the State legislature.
    We chose to do five regional districts rather than having 
one State czar, if you will. That way, we thought we could 
maintain better working relations and more local control.
    These water management districts were given ad valorem 
taxing authority in the constitution as well as their statutory 
authority which includes programs such as land acquisition, 
regulation, construction, land management and water resource 
preservation. Again, these water management districts have been 
constitutionally authorized for over 30 years.
    I commend the Florida model, Madam Chair, to my friends 
from Georgia, from the north, as many other States have looked 
at our model as a very good workable model.
    In 1982, we completed the first regional water supply 
development plan.
    In the late 1990s, the Florida legislature amended the 
Florida Water Resources Act, directing the State's five water 
management districts to comprehensively assess the adequacy of 
water supplies over a 20-year planning period.
    Let me say that again. In the 1990s, the Florida 
legislature directed the State's five water management 
districts to comprehensively assess adequacy of water supplies 
over a 20-year planning period and to develop regional water 
supply plans for these areas, identified as either having or 
being likely to develop future water supply problems.
    In response, the Florida water management districts 
established seven water supply planning regions and completed 
the first district-wide water supply assessments in 1998.
    In 2003, the demand projections from the assessments were 
updated through 2025. So, again, even after the turn of this 
century, we have updated those assessments through 2025.
    Based on the results of the assessments, the Water District 
Governing Board determined that water supply demands were not 
sustainable in three west Florida counties--Santa Rosa, 
Okaloosa and Walton--because of high concentrations of 
development taking place in those areas.
    The Board directed staff to develop a regional water supply 
plan to include water resource development and water supply 
development components. This plan was first developed in 2001 
and updated in 2006.
    Thus, Madam Chair and Ranking Member Boozman, for the past 
35 years, Florida has followed a long-term Statewide management 
strategy, while some of our friends to the north have allowed 
for unbridled development with little to no thought of its 
increased water needs. This second plan works well until you 
have a drought, but when you have a drought, all that goes out 
the window.
    On the ACF water sharing issue, I have been an advocate for 
Florida to receive our fair share of water. By the same token, 
I believe the solution to the water problems in the ACF Basin 
should be solved by the three States.
    I agree with John Lewis. Alabama, Florida and Georgia have 
to get together and solve this problem. They need appropriate 
oversight by the Federal Government.
    I believe that the three States should use a transparent 
process to include the following points: Number one, use 
independent and local experts to determine the water flows, at 
the river and the Apalachicola Bay, needed to maintain their 
productivity.
    Number two, set limits on water use within the tristate 
basin. For example, cap the water use to ensure that the river 
flow requirements can be met.
    Three, assess the water conservation potential among all 
users in the basin--agricultural, municipal and industrial--and 
determine the most cost-effective investments and who will pay 
for them.
    And, fourthly, embody these agreements in a durable, 
tristate compact with strong enforcement mechanisms.
    Madam Chair, fundamental inequities that currently exist 
between the States also need to be corrected. Let me give you 
an example.
    In Florida, if you go to apply for a building permit, you 
have to demonstrate that sustainable fresh water already exists 
to support that new usage for that building permit. Georgia 
does not require this as part of its new development process. 
This is the long-term planning part that I am talking about.
    The recent ruling in the D.C. Court of Appeals that 
overturned an award of 750 million gallons per day for Atlanta 
needs to find immediate implementation in actions by the Corps 
of Engineers to modify the current Exceptional Drought 
Operations Plan and release the increased amount of water 
downstream.
    If Georgia seeks to get municipal and industrial water 
supply added as a Congressionally authorized use for the waters 
in Lake Lanier, then there should be another Congressionally 
authorized use added for the protection and preservation of the 
health, ecology and productivity of the Apalachicola River, 
flood plain and estuary.
    I also believe that Congress should have close oversight 
over the Corps of Engineers' development of an updated water 
control plan for the ACF system, including a comprehensive 
scope for the environmental impact assessment.
    Madam Chair, I am very excited to have members of the 
Apalachicola River Riparian County Stakeholders Coalition in 
Washington, D.C. for your important hearing.
    Kevin Begos, who is the Executive Director of the Franklin 
County Oyster and Seafood Taskforce and a member of the 
Stakeholders Coalition, will testify before your Committee. 
Kevin is on the front lines of the water sharing issue, and I 
am confident that he will be a strong voice to speak for our 
interests before the Subcommittee.
    Kevin will be joined by other members of the Coalition 
including Dave McLain of the Apalachicola Riverkeepers, 
Commissioner Smokey Parrish with the Franklin County Commission 
and Chad Taylor representing Jackson County on the Riparian 
Coalition. Their combined expertise and insight on this issue 
will be invaluable.
    Madam Chair, thank you again for holding this hearing, and 
I look forward to working productively with you and my friends 
from Alabama and Georgia to find long-term good solutions. 
Thank you much.
    Ms. Johnson. Thank you very much.
    Now we will hear from Congressman Johnson.

      TESTIMONY OF THE HONORABLE HENRY C. JOHNSON, JR., A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF GEORGIA

    Mr. Johnson. Madam Chair Johnson, Ranking Member Boozman, 
thank you for holding this hearing on Comprehensive Watershed 
Management and Planning: Drought-Related Issues in the 
Southeastern United States. I look forward to the testimony of 
the distinguished panel of witnesses, and I thank you for your 
efforts.
    Thank you also for the opportunity to address the 
Subcommittee on Water Resources and the Environment on such an 
important issue for my State and my district.
    As you know, Georgia and much of the southeast is in the 
third year of what many are calling the worst drought in 
recorded history. The drought has arrived at a particularly 
poor time as the manuals directing how the water in the ACT and 
ACF river basins is managed have not been updated in decades.
    The U.S. Army Corps of Engineers, charged with the 
difficult task of managing these two systems in normal years, 
was initially forced to manage this extraordinary drought 
without a plan and is now operating under an Exceptional 
Drought Operations Plan which will expire in the coming months. 
Meanwhile, the governors of Georgia, Alabama and Florida, 
failing to reach an agreement on long-term water use 
allocation, the people of Georgia and the entire region are 
becoming increasingly frustrated.
    It is clear, Madam Chair, that the complete failure to 
properly manage these river basins over the years has led 
directly to the situation we are currently in. It is deplorable 
that Federal agencies and elected leaders have been unable to 
work together to ensure that millions of people across the 
southeast have adequate access to water for drinking, power 
generation, fishing and recreation.
    Unfortunately, these are the facts and there was no plan in 
place to deal with this drought when it arrived, further 
exacerbating the situation.
    Georgians now face very strict restrictions on water use, 
and municipal water systems across the State are required to 
reduce their consumption by 10 percent or face steep fines 
which will then be passed on to already strapped ratepayers.
    Like my colleagues from the region, I am concerned about 
the impact that failure to reach a long-term agreement will 
have on the economy of the southeast. Many small businesses, 
already squeezed by high gas prices, are now further squeezed 
by the water restrictions. Many larger businesses may decide 
not to locate in Georgia, and the millions of people who are 
expected to move to the region may choose instead to relocate 
elsewhere.
    Faced with dramatic increases in their water bills and 
increasingly strict restrictions on how they can use their 
water, the people back home want a plan for managing this 
crisis and a plan for preventing another similar crisis.
    Federal agencies and elected officials must continue to 
work toward both a long-term allocation of water as well as a 
short-term plan for managing this drought. It is unacceptable 
that negotiations have broken down while the people of this 
region grow increasingly worried.
    I, however, am very proud of the citizens of Georgia as 
they have shown a remarkable ability to come together and 
adapt. Georgians have met and, in many cases, exceeded the 
governor's mandated 10 percent reduction in water use. This is 
a remarkable achievement for a State and a metropolitan area 
that is rapidly growing, and it shows the commitment to 
conservation that Georgians are making.
    This drought has awakened many people to the fact that 
Atlanta has a very tenuous supply of water. Conservation must 
be an integral part of an agreement on water allocation, yet 
the region must also consider options for increasing the amount 
of storage capacity in order to accommodate the projected 
growth.
    I am hopeful that as a result of this hearing and others, 
the continued involvement of the Secretary of the Interior as 
well as the Congressional delegations from Georgia, Alabama and 
Florida, that a workable solution will soon be reached.
    Once again, I applaud the efforts of the Chairwoman and the 
Members of this Subcommittee, and I thank you for the 
opportunity to be present here today.
    Ms. Johnson. Thank you very much, Congressman Johnson, and 
I thank all of the members of this first panel. You may now be 
excused, and we will go with the second panel.
    Thank you very much for your valuable participation this 
morning.
    Our second panel of witnesses consists of Mr. Robert 
Hunter, Commissioner for the City of Atlanta's Department of 
Watershed Management, Mr. Kevin Begos testifying on behalf of 
both the Franklin County Oyster and Seafood Taskforce as well 
as the Riparian County Stakeholder Coalition, and our final 
witness is Mr. Tim Burch, a board member from the Georgia 
Peanut Commission.
    Your statements will be placed in the record, and we ask 
that you try to limit your testimony to about five minutes as a 
courtesy to other witnesses. Again, we will proceed in the 
order in which the witnesses are listed on the call.
    So, Mr. Hunter, you may proceed.

 TESTIMONY OF ROBERT J. HUNTER, COMMISSIONER OF THE DEPARTMENT 
    OF WATERSHED MANAGEMENT, CITY OF ATLANTA; KEVIN BEGOS, 
EXECUTIVE DIRECTOR, FRANKLIN COUNTY OYSTER AND SEAFOOD INDUSTRY 
TASKFORCE AND RIPARIAN COUNTY STAKEHOLDER COALITION; TIM BURCH, 
            BOARD MEMBER, GEORGIA PEANUT COMMISSION

    Mr. Hunter. Thank you, Madam Chair and distinguished 
Members of the Subcommittee, for holding this hearing and 
allowing me to testify.
    I am here in my capacity as the Commissioner of the 
Department of Watershed Management for the City of Atlanta with 
responsibilities for the drinking water, wastewater and 
stormwater systems in serving over 1.2 million people daily. I 
also represent the water supply providers for Metro Atlanta's 
five million people.
    The southeastern United States is currently experiencing a 
drought of record proportions. Unfortunately, the effects of 
these drought conditions on the Federal reservoirs and those 
who depend upon them have been exacerbated by management 
decisions driven by litigation rather than sound science or 
effective resource management.
    What is needed is cooperative, responsible stewardship of 
the region's water resources for all users. The implementation 
of science-based sustainable operating plans for the southeast 
region's reservoirs is the essential first step in moving to a 
future of sound regional water resource management.
    We know that such a plan is possible because the water 
supply providers of the Metro Atlanta area have done the 
research and developed an alternative plan that is better for 
all users including protected species and recreation. That is 
what I would like to discuss today.
    We have all seen the media coverage of last year's 
exceptional drought and water crisis and, while we are now in 
the last month of our rainy season, it is important to note 
that we are already two and a half inches short of rainfall 
this year. The drought continues.
    Knowing that we set records for low water levels last year, 
it is sobering to note that Lake Lanier water levels are 
currently almost 13 feet lower than this time last year. If 
drought conditions persist this summer as predicted, the result 
could be devastating for the entire ACF Basin. The need for 
action is immediate.
    What are the causes of these dangerous water levels? First 
of all, we are in a record drought. All users should expect 
significant impacts and all users should be taking appropriate 
conservation measures.
    More importantly, it is the management plan implemented by 
the Corps that has turned a natural disaster into a crisis. The 
operating plan that caused this crisis is the interim operating 
plan for the Jim Woodruff Lock and Dam, the IOP adopted in 
March, 2006. This operating plan is not sustainable because it 
requires large releases from reservoir storage to meet 
artificially high minimum flows at the Florida line without 
ever allowing the reservoirs to refill, in particular Lake 
Lanier.
    This unsustainable plan nearly emptied the Federal 
reservoirs and throughout the system in a crisis in 2007. From 
May to November, 2007, the water delivered from the Federal 
reservoirs in the Chattahoochee River to the Apalachicola River 
amounted to 220 percent of the river's natural unimpaired flow.
    What is not the problem is that there isn't enough water. 
The problem is how we manage the water and especially the 
reservoir system.
    Some basic facts on water use in the ACF:
    Metro Atlanta, annual net consumptive use is only 1 percent 
of the total volume at the Georgia-Florida State line in normal 
years and less 2 percent during drought years; 4.5 million 
people; 72 percent of the basin population use less than 2 
percent of the water.
    Comparison to other users: Flint River irrigation, the 
annual average is 165 percent of the Metro Atlanta use. Peak 
use is 313 percent for irrigation. The evaporation from 
reservoirs is 83 percent, and the Port St. Joe diversion from 
the Apalachicola Basin is 50 percent of the Metro Atlanta use.
    Protected species requirements for discharge are 20 times 
that of Metro Atlanta's consumption and the spring sturgeon 
release is 72 times the volume.
    All these uses are significant and important, but all users 
need to be part of the solution and take appropriate 
conservation measures.
    A few quick notes on conservation in the Metro area: The 
North Metro Atlanta Water District has strict conservation in 
the plan for the Metropolitan North Georgia area. We have a 
virtual ban on outdoor water use.
    An example from the City of Atlanta, in 2004, we committed 
almost $1 billion towards water system improvements. We had 
tiered conservation pricing.
    Since that time, we have replaced 55 miles of old pipes 
with new main. We are moving from design to construction of 
almost $325 million in new water mains. We are repairing more 
than 800 leaks per month to our water distribution system which 
saved 55 million gallons of water in 2005.
    And, you can grow and conserve water. Between the years 
2000 and 2006, the City of Atlanta added 9 percent more water 
customers but was able to reduce total water consumption by 5.2 
percent through water conservation and tightening up our 
system.
    What is the solution? First of all, the Corps must also 
conserve. The amount of water that can be saved through 
conservation pales in comparison to the amount that is 
continuing to be wasted through improper reservoir operation. 
It is literally a drop in the bucket.
    From the standpoint of Corps operations, the Corps needs to 
conserve storage to the maximum extent possible. First of all, 
the Corps needs to stop over-releases. The Corps, in recent 
weeks, has been making excess releases from Lake Lanier on the 
order of 400 to 500 cubic feet per second per day for no 
purpose. The amount of water that is being wasted each day is 
roughly twice the total amount of water the entire Metropolitan 
Atlanta area consumes in a day.
    The Corps also needs to grant Georgia's request to reduce 
the flow target at Peachtree Creek by 200 cfs. That is a water 
quality issue during the winter, not a water quantity issue. 
Not reducing this flow simply wastes water in Lake Lanier that 
we are very likely to need by late summer for all the users in 
the system.
    Finally, the Corps reservoir operations must change. We 
recommend that the Corps adopt a three-step recovery plan for 
Lake Lanier. The first step is to adopt an emergency recovery 
plan. To weather the current prices, the Exceptional Drought 
Operations Plan must be extended and modified to allow all 
reservoirs to refill.
    The second step is to replace the IOP with a better, more 
sensible plan to ensure we do not repeat the mistakes of 2006 
and 2007.
    And, a third step for the longer term is to adopt a 
comprehensive water control plan for the ACF Basin that is 
based on facts and sound science.
    The City of Atlanta and the other metro area water supply 
providers strongly support the Corps' current initiative to 
update water control plans for the ACF Basin. We know this can 
be done because we have already found a way to do it. On 
January 10th, 2007, the water supply providers submitted a 
proposal to the Corps which we call the Maximum Sustainable 
Release Rule.
    Our proposal is attached as Exhibit C, and a summary 
explanation is attached as Exhibit D to my testimony.
    Our analysis shows that the alternative we propose could be 
better for all parties including the endangered species that 
inhabit the Apalachicola River.
    Ms. Johnson. Mr. Hunter, if you could just wrap up.
    Mr. Hunter. Madam Chair, thank you for allowing me to 
provide testimony on this important issue.
    Ms. Johnson. Thank you very much.
    I want the record to show that Congressman Bishop from 
Georgia is entering his testimony into the record. He is 
scheduled for two other places at the same time, which is not 
unusual around here.
    I would like to welcome now, Mr. Kevin Begos, testifying on 
behalf of the Franklin County Oyster and Seafood Taskforce as 
well as the Riparian County Stakeholder Coalition.
    You may proceed.
    Mr. Begos. Madam Chair and Committee Members, we would like 
to thank you all for this opportunity to testify on this issue 
of great importance to the people, economy and environment of 
north Florida, and we also thank Congressman Boyd for his 
support.
    I am speaking on behalf of nearly 2,000 people who work in 
the Franklin County seafood industry and for the people who 
live and work in the six-county region bordering the 
Apalachicola River.
    Last May, a period of extremely low flows on the 
Apalachicola River began and stayed that way for nearly six 
months, the longest recorded period of low flows since 
recordkeeping began in the early 1920s. As the river vanished, 
people and businesses began to suffer.
    The electric turbines that help supply the cities of 
Chattahoochee and Quincy fell silent, and electric bills began 
to spike. In the swamps, the Tupelo honey trees that help make 
the world's sweetest honey delivered just half their normal 
bounty to beekeepers.
    Then the lush aquatic grasses that normally cover the upper 
parts of Apalachicola Bay bean to die off, leaving nothing but 
barren sand and mud bottoms. The blue crabs disappeared, and 
fishermen pulled up pots mostly in vain.
    The summer progressed and soon the effects of the low flows 
could be seen everywhere. The white shrimp catches crashed to 
historic lows, and entire oyster bars died off from the 
combined stress of lack of fresh water and a huge wave of 
predators that came in from the Gulf. Even the color of the 
water in the bay changed.
    The entire ecosystem was impacted, and at this time we 
still don't know the full extent of the damage because the 
drought is not over.
    Madam Chair, this is not a case of people versus mussels. 
It is about finding a way for all the vital needs along the 
river to be fairly balanced, from cities to farms to seafood 
producers to the environment.
    The seafood industry drives our economy in Franklin County, 
and many of our neighbors upstream rely on the Apalachicola 
River. The bay is one of the most productive estuaries in the 
northern hemisphere, a nursery for species from all over the 
Gulf of Mexico. Recreational fishermen, commercial fishermen, 
beekeepers, the timber industry and the tourism industry all 
benefit from and depend on this natural chain.
    The National Oceanic and Atmospheric Administration has 
designated 246,000 acres of the lower river and bay as a 
National Estuarine Research Reserve, and the United Nations has 
also designated it as an International Biosphere Reserve which 
draws visitors from all over the world.
    Here are some details of what a lack of fresh water can do 
to the system:
    For generations, shrimp fishing has been a cornerstone of 
our economy. Yet, in 2007, the white shrimp harvest crashed by 
about 90 percent, and the brown shrimp harvest declined by 65 
percent according to preliminary figures. Boats fell into 
disrepair and even sank at the dock, and shrimp houses fell 
silent too, depriving workers of paychecks.
    The blue crab catch from the bay in 2007 declined by about 
70 percent from the previous year, and the flounder catch 
declined by about 30 percent. Even with different life cycles 
and feeding habits, all suffered.
    Our oyster fishery was hit when entire oyster bars died off 
during late summer and others failed to produce as they had in 
the past. So, virtually, our whole fleet of oystermen focused 
on one area of the bay, threatening to wipe it out.
    Though ample rainfall over the last three months has eased 
the pressure, any tristate agreement that fails to take the 
needs of the entire ecosystem into account could doom our 
river, bay and way of life by locking in low flows every year.
    Oysters play a key role in maintaining our water quality 
since they are filter feeders. If our oyster beds die off, we 
will head toward the same situation as Chesapeake Bay, where 
State and Federal authorities have spent vast sums trying to 
repair the damage done to nature.
    We say it makes moral and economic sense to protect what we 
have rather than to destroy and rebuild. Since the late 1960s, 
hundreds of millions of dollars have been spent, mostly by the 
State of Florida to put approximately 261,000 acres in 
Apalachicola River and Bay drainage basin into public 
ownership.
    Madam Chair, two closing points, much has been written and 
said about the disputes between these three States, but in fact 
the people of north Florida have much in common with our 
neighbors in Georgia and Alabama. There are deep family, 
cultural, economic and environmental ties. These river systems 
belong to us all, not to one.
    So we say, let's try to work together in a fair and open 
way to find a balanced solution based on science that meets 
your needs as well as ours. But to do that, the Federal 
Government and the States need to move away from closed door 
negotiations and start a transparent process with all 
interested parties including Congress.
    One final point, Madam Chair, some have suggested that 
these water disputes are simply a matter of big versus small, 
hinting that those areas with fewer people and less power must 
lose out. That would set a disastrous precedent not only for 
our region but for the entire Country.
    If some say that big must always win, that sets the stage 
for every minority to lose. That is not the American way.
    I will close with a nod to the sentiment about small places 
that Daniel Webster first expressed to the U.S. Supreme Court 
in 1818, which is still true today. The cities of Apalachicola, 
Wewahitchka, Blountstown and Chattahoochee are small, yet there 
are those that love them.
    The people and environment of north Florida deserve to be 
treated as equals, and we thank you and this Committee for 
giving us that opportunity.
    And, finally, Madam Chair, I would like to say that we had 
some updated statistics since I submitted written testimony, 
and we would like your consent to include those in the written 
record.
    Ms. Johnson. With no objection.
    Thank you very much.
    The Committee now will hear testimony from Mr. Burch.
    Mr. Burch. Good morning, Madam Chair and Members of the 
Subcommittee.
    My name is Tim Burch. I am a native of Baker County, 
Georgia, which is located in the southwest part of the State. 
We are part of the Flint River Basin.
    I have farmed with my brother and father all of my life and 
live on my grandparents' farm. I grow peanuts, cotton and raise 
beef cattle.
    I have served on the Georgia Farm Bureau advisory 
committees and have been a delegate to the National Cotton 
Council. I currently serve as Executive Board Member of the 
Georgia Peanut Commission, and I am also an elected Baker 
County Commissioner, serving since 1993.
    The extended drought in the southeast has dramatically 
impacted agriculture. Irrigation systems, which have become a 
necessity to produce crops, continue to expand at great expense 
to the operating costs of our businesses.
    Increases in energy costs have made our drought problem 
worse. There is no indication that energy costs will diminish 
in the 2008 crop year.
    Drought loses in Georgia during 2007 were approximately 
$800 million according to the Center for Agribusiness and 
Economic Development at the University of Georgia. Those losses 
came primarily from hay, pasture, cotton, peanuts and corn. The 
greatest losses were in pasture, approximately $265 million.
    The Center estimates that the 2007 drought had a total 
economic output impact of 1.3 billion in losses. Output losses 
are the total sales that are lost to the Georgia economy due to 
these direct losses reported for each commodity.
    My home county of Baker was one of the more severe drought 
counties in the State. Total peanut losses were four to eight 
million dollars. Cotton losses were six to eleven million 
dollars. Total losses in Baker County were estimated by the 
Center to be between 10 and 20 million dollars.
    This is a lot of money to take out of the economy of a 
small, sparsely populated rural county. Please note that Baker 
County has no manufacturing and only a few retailers and 
agriculture.
    The water issues in Georgia have been much debated for many 
years. There are clear concerns for both urban and rural areas.
    There are two key areas I would like to emphasize this 
morning for agriculture. First, individual producers recognize 
the importance water as a shared natural resource. Second, 
collectively, Georgia producers have participated in planning 
initiatives for water resources in our State and will continue 
to do so.
    With regard to production agriculture, farmers are applying 
new water conservation methods such as conservation tillage and 
technologies for irrigation, such as the precision application 
of water. This latter method is so critical to improving water 
use efficiency.
    The Flint River Soil and Water Conservation District 
recently testified before the House Agricultural Appropriations 
Subcommittee. The hearing focused on rural broadband issues.
    This may not appear on its face to be a concern that 
impacts water conservation, but new technologies advanced by 
the University of Georgia allow for more irrigation efficiency 
using internet technologies. Without broadband, this new water 
conservation efficiency technology is of little value to 
Georgia producers.
    In addition to helping our rural kids compete with urban 
school systems, broadband technology will assist farmers in 
water conservation. Whether you produce cotton, corn or peanuts 
in the southeast, irrigation will continue to expand or farmers 
will not be in business.
    We have to utilize the most efficient water conservation 
technologies possible to assure that we are not wasting this 
precious resource. Expanding rural broadband is a critical 
piece to this process.
    The Senate version of the 2007 Farm Bill contains a new 
conservation rotation program. If this program survives the 
Farm Bill conference, we believe it will add to water 
stewardship. The program provides incentives to farmers to 
practice better crop rotation.
    Flint River Soil and Water Conservation District estimates 
that since 2001 agricultural producers have saved over 13 
billion gallons of water due to groundwater conservation 
practices. These savings were due to irrigation water 
management, conservation tillage, irrigation reservoirs, 
moisture monitoring and variable rate irrigation.
    With reference to our collective efforts in Georgia to 
resolve the water management issue, Georgia Farm Bureau 
Federation has taken the lead representing Georgia farmers in 
the State water plan development. Georgia farmers have 
supported augmenting our water supplies through all reasonable 
means including more reservoirs of various types, aquifer 
storage and recovery and desalination.
    The water plan has now passed the State legislature and 
become law. It establishes a framework for moving forward on 
Georgia's water issues. Georgia producers will continue to 
participate as the plan evolves.
    I appreciate the opportunity to testify today. We have very 
serious water issues in our State and the southeast.
    As one segment of Georgia's economy, we are striving to use 
the best technologies and conservation practices available to 
protect our water resources. We are actively involved in the 
State water management planning.
    We encourage the Congress to provide as many tools as 
possible to help southeastern producers use the best available 
process for conserving water.
    Thank you.
    Ms. Johnson. Thank you very much, Mr. Burch, and we will 
now hear questions from the Subcommittee for the second panel.
    I will begin by asking Mr. Hunter. Mr. Begos observed in 
his testimony that Florida links growth to water usage by 
requiring building permit applicants to demonstrate that there 
are sufficient water resources to support the proposed 
construction. What steps has the City of Atlanta taken to 
similarly ensure that the city's growth does not outstrip the 
water supplies?
    Mr. Hunter. I would answer with both a City of Atlanta and 
Atlanta Metro response to that question, Madam Chair.
    The Metropolitan North Georgia Water Planning District has 
been very active for the past several years in terms of our 
water supply plan and our water conservation plan in 
conjunction with the Georgia Environmental Protection Division.
    Only water withdrawal permits for the water utilities that 
are part of that plan--that includes not only the supply side 
but the water conservation requirements--are allowed. So, from 
a macro standpoint for the entire 5 million population region, 
we have an established control procedure in a plan tied into 
permitting.
    On the local level for the City of Atlanta, as I indicated, 
we have not only increased our population by 9 percent but 
decreased our consumption by over 5 percent through a very 
active program of capital investment, replacing 55 miles of 
water main, repairing over 800 leaks a month, of how we manage 
our water and how we conserve that water.
    We also have a million dollar program set up for retrofit 
rebates on plumbing fixture changes. We have a very aggressive 
water conservation plan and long-term planning so that we stay 
within the confines of our permitted capacity.
    Ms. Johnson. Thank you very much.
    Mr. Begos, what role do you think that Congress should play 
in ensuring that the economy and way of life of the north 
Florida oyster industry is maintained while ensuring that there 
is sufficient water for upstream users in Alabama and Georgia?
    Mr. Begos. Madam Chairwoman, we think it is partially just 
to give us opportunities to speak like this. As you noted, the 
governors of the three States did not appear here. We felt a 
little bit shut out from the process recently too.
    We think a more open process and also what Mr. Boozman 
referred to of providing some technical information and 
assistance to the States, and also to the Corps of Engineers 
and the States so that they can have economic impact studies of 
Apalachicola Bay. We believe there needs to be a new look at 
the whole economic impact of the Apalachicola Bay ecosystem and 
that should be integrated into water control manuals.
    Ms. Johnson. Thank you very much.
    Now let me ask this to Mr. Burch. Do you think that the new 
Georgia water management plan, recently enacted by the Georgia 
legislature, is an effective system to reduce water consumption 
and fairly distribute the cost of drought throughout the State 
and region?
    Mr. Burch. Madam Chair, I certainly hope that it is a good 
starting point.
    Ms. Johnson. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    To the whole panel, we have been hearing a lot about 
comprehensive watershed planning, and my understanding is 
perhaps that we will go into that further this year. What role 
should the Corps of Engineers play in that as far as 
comprehensive watershed planning?
    Mr. Hunter, where do you see their role?
    Mr. Hunter. Mr. Boozman, I believe the Corps of Engineers 
has a central role to the comprehensive planning. This is not 
only a Federal and State but a local issue, and I would share 
my colleague's sentiments, his statements that local water 
providers and local users must have a seat at the table.
    The Corps, though, manages the projects along with the 
power companies in both the ACF and ACT. They control the water 
plans, the control plans for the projects.
    It is essential that they take that role. It is essential 
that it be a thorough, comprehensive evaluation and look at how 
to maximize the benefits to all the users, and the work that we 
have done on our modeling indicates that that is not only 
possible but readily implementable.
    Mr. Boozman. Very good.
    Mr. Begos. We believe the Corps does have a central role, 
but I would say there is also room for other agencies such as 
NOAA to provide technical support, perhaps National Marine 
Fisheries Service from our perspective and, most importantly, 
not just independent experts but even local experts in our case 
who have knowledge of our specific issues.
    Of course, I would say the same for my colleagues here, 
that they should have the right to bring in their independent 
experts and their local experts for their needs, so we can 
really have a comprehensive body of data, looking at the whole 
basin from Lake Lanier all the way down to Apalachicola Bay.
    Mr. Burch. I certainly feel that the Corps has the lead 
role.
    It is terribly important that they take into account all of 
the water supply issues in the State. Different basins have 
annual water recharge. We have been under a water restriction 
in the past in my area on irrigation, a moratorium on well-
drilling, and it has been determined that our aquifer recharges 
on an annual basis.
    So it does need to be looked at independently. We have got 
to have representation when negotiations take place.
    Mr. Boozman. Some suggest that the Federal agencies can 
play a key role in helping municipalities switch to 
desalinization, other technologies. Other than funding, what 
role can the Federal Government play in that respect?
    Mr. Hunter. Desalinization, internationally, is a viable 
technology. We have some countries that are completely 
reversing the flow of their water from east to west, going to 
west to east, looking at desalinization as the source and water 
reuse.
    In the United States, desalinization is primarily a coastal 
technology. It is growing in popularity.
    Applications in the ACF Basin don't necessarily involve 
what is often discussed, which is the big pipeline to Lake 
Lanier. Atlanta is 250 miles to Savannah and over 300 miles to 
the Gulf of Mexico. It is a viable technology in terms of 
providing water closer to the source, whether that is 
Apalachicola Bay, whether that is the Apalachicola River or 
whether that is south Georgia in terms of agriculture.
    Certainly, something that could be a Federal role on a 
regional basis like that is a support of infrastructure 
funding.
    Mr. Boozman. As Atlanta grows, again in looking at 
alternatives to the lake, what are the impediments as far as 
building another reservoir or whatever? I am sure that you all 
have explored that.
    Mr. Hunter. Well, the metro area has explored a number of 
reservoirs and, of course, there are several hurdles to 
overcome there, one of which would be the permitting. Another 
one would be the substantial cost. Land prices and population 
have changed a bit in the north Georgia mountain areas since 
the early fifties.
    Another aspect, though, that is going on is smaller 
reservoirs. For example, the City of Atlanta recently purchased 
a granite quarry which will provide us almost 2 billion gallons 
of offline storage and will help us extend our water use by 
managing it, being able to take in flows during high flow 
periods and save those for summer months. That will extend our 
water use, our water permit viability by over 15 years.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. McNerney.
    Mr. McNerney. Thank you, Madam Chair, and I want to thank 
the panel for coming here this morning.
    You know this is a wakeup call or more than a wakeup call 
to the eastern part of the Country.
    We have seen a lot of these things you are talking about in 
California for many decades now. For example, the San Joaquin 
River runs through my district. It used to be a navigable 
river.
    Now it is a dry riverbed, and that degraded ecosystem has 
basically shut down livelihood. People that made a living on 
the river are now long gone.
    There are also conflicts between the populated areas that 
want the water and the rural areas that have the water. I don't 
want to point fingers, but certain parts of the State have been 
known to take water from other regions of the Country, and we 
have to make sure that when we go down that path that we do it 
carefully and in a way that takes care of both needs.
    We can't take water for granted, and we need a rationale 
and flexible--flexible--approach. We need to capture more fresh 
water when there is a large flow without adversely impacting 
natural systems.
    What sort of alternatives are there to reservoirs in the 
Georgia area that would be useful? I mean, in California, we 
can recharge groundwater in ways, but I don't if that is viable 
in Georgia.
    Mr. Hunter. No, sir. There are a few distinct differences 
between the situation in north Georgia and most of the 
California major water projects.
    For one, only 5 percent of the drainage basin is above Lake 
Lanier or a little bit more than 1,000 square miles to recharge 
that lake. That is why even if we get a normal rainfall pattern 
now, it will probably take three to four years to fill Lake 
Lanier under current operating plans.
    The other issue is that we essentially have a thin layer of 
red Georgia clay over solid granite. I am constructing some 
very large eight mile long tunnels in Atlanta as part of our 
Corps project now, and we are boring through solid granite.
    There are very minor groundwater resources, none sufficient 
to use to run a large municipal water system.
    So what we have as a water resource is a small drainage 
basin, 100 percent surface water that is controlled by the 
Corps projects.
    Mr. McNerney. That is what bothers me.
    We want to look for the way the Fed can help, but the needs 
are so different depending on what region of the Country you 
are in, I am, therefore, afraid that mandates would be 
counterproductive. Do you have any suggestions on how we could 
build a Federal involvement that would be beneficial across the 
Nation?
    Mr. Hunter. Well, certainly, Representative Linder's plan, 
in terms of the studying and active involvement of multiple 
groups at all levels in formulating the plan, will be a large 
help.
    In the case of Georgia, we certainly are using the 
experiences and using the knowledge of the western United 
States as they have gone through that process and the 
negotiations of the Colorado River and other areas of the west. 
Perhaps the greatest immediate resource is the sharing of that 
knowledge as we try to solve this problem that is growing 
throughout the eastern United States.
    Mr. McNerney. Well, it is clear that the problem is not 
going to get better by itself. So I look forward to working 
with the panel and Members of the Committee to finding rational 
solutions to this and a flexible way to move forward.
    I yield back.
    Ms. Johnson. Thank you very much, Congressman.
    Congressman Duncan.
    Mr. Duncan. Well, thank you, Madam Chairwoman, and thank 
you for calling this very important hearing.
    I am sorry that a very large school group ran late, and I 
didn't get to hear the testimony.
    This problem of the drought in our region has become so 
serious that there has even been talk in the Georgia 
legislature about movement of the Georgia-Tennessee border, and 
there have been a lot of jokes about this proposal, but this is 
a pretty serious problem.
    The Knoxville News Sentinel published an editorial just a 
couple of days ago, and they wrote this. They said: ``The 
effects of drought are well documented. The Tennessee Valley 
Authority reported a loss of $17 million in the first quarter 
of the 2008 year, and the drought is one of the main reasons. 
In November, reports revealed the reservoirs in Atlanta were 
close enough to the bottom that dirtier water that contained 
more bacteria was going to need more expensive purification.''
    The Sentinel said now is the time to take a serious look at 
our water resources and how they are managed, and I think this 
hearing is an important part of that.
    On the other hand, over the years, we have had many studies 
that are on the shelves, and I think people would prefer that 
we have less studying and more action on some of these 
problems. We have heard testimony about duplication or various 
agencies--local, State and Federal--going sometimes in 
different directions.
    But about four years ago, we had T. Boone Pickens, the 
great entrepreneur, in here, who made just an unbelievable 
fortune off of oil, and he is out buying up water rights in 
Texas because as one article said in the New York Times. It 
said water is going to be the oil of the 21st Century, and 
there are even predictions that there will be wars fought over 
water in some parts of the world. So this is something that we 
can't overemphasize the seriousness of what we are dealing 
with.
    The problem, it seems to me, I read in the National Journal 
about three weeks ago that two-thirds of the counties in this 
Nation are losing population, and that surprises many people, 
but all over the Country the small towns and rural areas are 
losing population or barely holding on.
    People say they want land around them, but they really do 
not. They still want to be near the malls and the restaurants 
and the movie theaters.
    I represent Knoxville and the surrounding area and the 
tremendous growth in Tennessee is in a circle around Nashville 
and in a circle around Knoxville, and I am very familiar with 
the growth that has occurred in and around the Atlanta area.
    I don't know what the answers are, what all the answers 
are, but I will tell you that in most of the rapidly developing 
countries around the world, they do these infrastructure 
projects in about a third of the time that we do them in.
    We take 10 years to study a problem before we really act on 
it. In fact, this is not water, but the newest runway at the 
Atlanta Airport took 14 years from conception to completion 
mainly because all the environmental rules and regulations and 
red tape. It took only 99 days of actual construction.
    What we are going to have to do, we are going to have to 
put more emphasis on water projects, in my opinion, where this 
rapid development is going on, and we are going to have to do a 
lot fewer studies and a lot more actually taking action or 
doing some projects where the need is the greatest.
    Thank you, Madam Chairwoman.
    Ms. Johnson. Thank you very much.
    Any other questions?
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Madam Chair, and I want to 
thank you and the Committee for allowing me to be here.
    Mr. Hunter, I want you to go back and congratulate Mayor 
Franklin on the job that she has done in trying to get 
Atlanta's water and sewer systems on the right track. I served 
in the Georgia legislature for 12 years. It was always easy to 
kick Atlanta and try to fine them and other things for their 
water situation, but Mayor Franklin has stepped up to the plate 
in spending money.
    Madam Chair, I would like to ask unanimous consent to 
submit this pamphlet to the Committee and put it in the record 
that gives testimony and some facts and statistics to back up 
what Atlanta has done to help solve some of these water 
problems that they have had in the past.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Westmoreland. Mr. Begos, I used to go visit Bay City 
Lodge and Mr. Jimmy Muscala quite a bit down there, and I have 
fished in Apalachicola Bay on many occasions and have eaten 
some of those great oysters down there.
    Is it true too that a lot of times there is more fresh 
water in the bay than there needs to be?
    Mr. Begos. Congressman, that is sometimes true. We are 
sometimes frustrated by having too much water coming down the 
system that would shut down oyster harvest for a period of days 
or weeks. There is a potential solution, long-term, of looking 
at the whole thing at certain times when you could hold more 
water upstream.
    Mr. Westmoreland. I was just talking to a friend that was 
down there fishing, and he said they were catching a 
shellcracker almost out to the cut. So that is an indication 
that there is probably more fresh water down there during these 
times of heavy rains than have been.
    You also mentioned about Blountstown. I have been down the 
river before also, stopped at Blountstown, and I know they get 
a lot of economic development from that river traffic.
    Do you know anything about that silting up in that area 
where it is harder to get boat traffic down and what is 
stopping the dredging of that area, if anything, and does it 
need to be dredged?
    Mr. Begos. Congressman, that is not really my area of 
expertise. I am more of the Apalachicola Bay area. So I would 
defer on that.
    Mr. Westmoreland. I will ask Mr. Burch this same question. 
Do you think it would help if there was some type of controls 
put on the Flint River?
    Right now, the Flint River is basically unbridled and, if 
they get a large amount of rain and they are still releasing 
the 5,000 cfs on Lanier, it causes too much fresh water to get 
into that bay. Have you thought about any type of flood control 
or any kind of mechanism on the Flint that would help that 
situation?
    Mr. Begos. On that too I would defer to the final panel and 
to the experts, the hydrologists and marinologists for that. My 
area of expertise is not the Flint or its basin.
    Mr. Westmoreland. But you have had problems with too much 
as well as not enough?
    Mr. Begos. Sure. Droughts and floods are a natural part of 
the cycle. We are just looking for a fair long-term agreement 
that doesn't peg us at a such a low level that we are stuck 
just there.
    Mr. Westmoreland. I am with you, but if we could keep that 
flow constant, using both the management of the Flint and the 
Chattahoochee, I think that would be a better solution.
    Mr. Begos. Congressman, we are not asking for a constant 
flow. We are asking for more something that approximates the 
natural variations.
    Mr. Westmoreland. Do you know what the natural flow of the 
Flint or the Chattahoochee were, the natural flow before 
anything was ever on it? Do you have any idea what that natural 
flow was?
    Mr. Begos. I would defer to biologists and hydrologists on 
that.
    Mr. Westmoreland. Well, you might want to look at that 
because it is pretty interesting, what those natural flows are.
    Mr. Burch, just real quickly, I know that you live in 
Newton, Georgia. Was it in 1994 that your town was under water?
    Mr. Burch. Nineteen ninety-four and then again in 1998, the 
historic downtown was flooded, yes, sir.
    Mr. Westmoreland. I am going to have some questions for the 
other panel too about the impoundments on the Flint, but do you 
think any impoundments on the Flint other than the two small 
that are on there now would help maybe with your city not being 
put under water in some of these flood situations and also help 
the ability for agriculture?
    Let me make one other point quickly, Madam Chair. As far as 
agriculture and use of water in Georgia, I think this water 
plan has done a real good job of working with agriculture and 
making sure that they don't deplete the water resources.
    Mr. Burch. A dam certainly would have been a great benefit 
in 1994 and 1998. I am no expert, but I do know that our 
aquifer is limestone, and we don't know how much water is 
flowing underneath into Florida. So I don't know how much water 
we could hold back due to our substructure.
    Mr. Westmoreland. Yes, ma'am. Thank you, Madam Chair.
    Ms. Johnson. Let me thank the witnesses. There are no 
further questions.
    Before we proceed, I will ask unanimous consent to submit 
the report that Mr. Westmoreland offered to go into the record. 
Any objections?
    Hearing none, so ordered.
    Ms. Johnson. I want to thank the witnesses for being here, 
and I appreciate their valuable participation.
    The third panel of witnesses consist of representatives 
from a number of key Federal agencies. Testifying first is Mr. 
Jess Weaver. Mr. Weaver is a Regional Executive for the 
Southeast Area of the United States Geological Survey.
    Next, we will hear the important testimony of Brigadier 
General Joseph Schroedel from the U.S. Army Corps of Engineers' 
South Atlantic Division, and his testimony will be followed by 
that of Mr. Sam Hamilton from the U.S. Fish and Wildlife 
Service. Mr. Hamilton is a Regional Director of the Southeast 
Region.
    The final witness on our third panel is Mr. John Feldt. Mr. 
Feldt is the Hydrologist-in-Charge for the National Oceanic and 
Atmospheric Administration's National Weather Service, 
Southeast River Forecast Center.
    I thank you for being here, and you may proceed in the 
order that you are listed.

  TESTIMONY OF JESS D. WEAVER, REGIONAL EXECUTIVE, SOUTHEAST 
   AREA, U.S. GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR; 
 BRIGADIER GENERAL JOSEPH SCHROEDEL, COMMANDER, SOUTH ATLANTIC 
   DIVISION, U.S. ARMY CORPS OF ENGINEERS; SAM D. HAMILTON, 
  REGIONAL DIRECTOR, SOUTHEAST REGION, U.S. FISH AND WILDLIFE 
      SERVICE, DEPARTMENT OF THE INTERIOR; J. JOHN FELDT, 
   HYDROLOGIST-IN-CHARGE, NATIONAL WEATHER SERVICE, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Mr. Weaver. Madam Chairwoman and Members of the 
Subcommittee, thank you for the opportunity to testify on 
behalf of the Department of the Interior regarding the current 
drought in the southeast.
    I am Jess Weaver, Regional Executive for the Southeast Area 
of the U.S. Geological Survey. The mission of the U.S. 
Geological Survey is to assess the quantity and quality of the 
Earth's resources and to provide information to assist resource 
managers and policy makers at the Federal, State and local 
levels in making sound decisions.
    As part of that mission, in the ACF and ACT Basins, the 
USGS monitors continuous stream flow at 158 stations, providing 
the data in real time. In addition, the USGS measures 
continuous groundwater levels at 77 well sites, collects water 
quality samples at more than 80 sites and prepares water use 
data reports.
    The USGS works in partnership with 12 Federal, 10 State and 
60 local government agencies in the ACF and ACT Basins, and 
part of the 12 Federal include the agencies of the members of 
the panel sitting to my left.
    The ACF Basin covers 19,600 square miles extending from the 
Blue Ridge Mountains with free-flowing trout streams to the 
ecologically-rich Apalachicola Bay and the Gulf of Mexico. The 
basin includes parts of Georgia, Alabama and Florida and 
includes the Chattahoochee, Flint and Apalachicola Rivers.
    Located at the headwaters of the ACF system, Lake Lanier 
comprises 62.5 percent of the storage in the system but only 6 
percent of the drainage area. Because of its huge storage 
capacity and relatively small drainage area, it takes longer to 
refill Lake Lanier than it does other lakes in the system.
    There are numerous competing demands for the waters of the 
ACF Basin which provide water supply for about 60 percent of 
the population of Georgia and about 8 percent of the population 
of Alabama and about 1 percent of the population of Florida.
    The groundwaters of the ACF irrigate more than 780,000 
acres of farmland. The lower ACF rivers are home to one 
threatened fish species and two threatened and four endangered 
mussels.
    The rivers of the ACF are the source for about 59 public 
water suppliers, about 41 industrial plants including about 7 
thermal electric plants that each withdraw more than 100,000 
gallons per day. Additionally, there are more than 80 
groundwater withdrawal permits in the ACF Basin for public 
supply and industrial use.
    The system also provides flood control, navigation and 
recreation benefits. At the mouth of the ACF Basin, 
Apalachicola Bay represents a significant oyster and shrimp 
fishery.
    The greatest changes in basin hydrology in the past decades 
have been driven by increased public supply demands associated 
with the Atlanta region and increased agricultural withdrawals 
in the southern portion of the basin. During droughts, Lake 
Lanier is the storage of last resort to meet minimum flow 
requirements throughout the system. Another complicating factor 
is the effect on stream flow from groundwater withdrawals used 
for irrigation in the lower ACF Basin.
    The cumulative influence of these withdrawals can change 
the direction of groundwater flow. Streams that would normally 
gain water from surrounding aquifers during low flow begin to 
lose water to these aquifers. These dynamics have been 
simulated as part of a recently completed study conducted by 
the USGS.
    In the ACT Basin, the Alabama, Coosa and Tallapoosa Rivers 
flow southwestward from northwest Georgia to southwest Alabama, 
draining approximately 22,800 square miles into Mobile Bay.
    There are five Federal projects within the basin and eleven 
non-Federal Alabama power projects. Federal projects compose 22 
percent of the total water storage in the basin. The waters of 
the ACT are used to irrigate about 28,000 acres of farmland.
    The rivers of the ACT are the source for about 218 
industrial and public permitted water suppliers, 155 in 
Alabama, 63 in Georgia. These permits are required for users to 
withdraw more than 100,000 gallons per day. Additionally, there 
are numerous groundwater withdrawal permits in the ACT Basin 
for public supply and industrial use.
    The flood control, navigation and recreation benefits of 
the rivers and reservoirs in this basin provide enormous 
intrinsic and economic values.
    Thank you for the opportunity to present this statement, 
Madam Chairwoman, and I will be happy to answer any questions 
that the Members of the Subcommittee may have.
    Ms. Johnson. Thank you very much, Mr. Weaver.
    Brigadier General Joseph Schroedel.
    General Schroedel. Thank you, Madam Chair, first for the 
opportunity to testify here today, but I would also like to 
take this opportunity to thank all the Members of Congress for 
your support of our great Army which is engaged in a real war 
in far off lands to include 800 or so civilian volunteers from 
the United States Army Corps of Engineers and my own son with 
the Third Special Forces in Afghanistan on his third combat 
tour. Thank you very much for your support.
    Now the Corps generally constructs and operates 
multipurpose water resource projects and manages those projects 
as a system within a watershed irrespective of political 
boundaries. Project purposes can include flood damage 
reduction, production of hydropower, recreation, navigation, 
water supply, water quality, irrigation, and fish and wildlife 
conservation.
    Our day to day operation of our multipurpose projects seeks 
to balance these competing purposes. During a drought, that 
competition for limited water resources is magnified. To better 
manage these systems during this drought, we have focused on 
adapting to the uncertainties of the drought and managing the 
risks associated with those uncertainties.
    My division area encompasses operations on 13 of the 18 
major watersheds from Virginia to Mississippi. We have four 
districts involved in managing those watersheds, and there are 
two important things that we have done to help manage the 
drought in a flexible and adaptive manner.
    First, our district water managers have been diligent in 
adjusting operating and drought plans to manage the limited 
water resources during this drought.
    When conditions became so severe that our approved plans no 
longer support the system in accordance with our Corps 
regulations, the district water managers sought approval for 
temporary deviations from me, and I can tell you we have 
approved many deviations throughout the region. We can talk 
more about that later.
    The second critical thing we have done, which I would like 
to emphasize today, is that our district water managers 
routinely engage Federal, State and local agencies, industry 
and other concerned stakeholders, striving for both continual 
communication and complete transparency.
    Intensive communication is absolutely key during a drought 
for two reasons: one, to ensure that we, the Corps, understand 
the concerns of all of those involved in using our water 
resources and, second, to ensure that we notify the public in 
advance of management decisions which we intend to make. Our 
management of the ACT and ACF Basins, I believe, is very 
instructive in this sense.
    The ACT and ACF River Basins include Federal multipurpose 
projects. Under normal rainfall conditions, the Corps manages 
these systems to meet all authorized project purposes in 
accordance with draft water control manuals and plans that were 
developed in the late 1980s.
    When drought conditions develop, however, and water 
supplies dwindle, the Corps begins to lose its ability to meet 
all of the authorized project purposes all of the time. So we 
are faced with tough choices.
    On the ACT and ACF, we have faced considerable challenges 
in balancing project needs. Again, the key is communication. 
Last year, the Mobile District and the South Atlantic Division 
and my staff initiated, for the first time ever, weekly drought 
calls, conference calls on the ACT and biweekly drought calls 
on the ACF.
    These conference calls included all interested parties 
including environmental groups, industry, State and local 
agencies, Congressional staff and the media, complete 
transparency.
    These calls, which are very well attended--we are talking 
60 or better people every week--provide an update on basin 
conditions and describe the Corps management actions, both 
current and anticipated. They have been valuable venues for 
promoting two-way information sharing and, because they are 
direct linked through agencies, Congressional staff and 
stakeholders provide information to the Corps.
    I would add that we leverage every means available, TV, 
newspapers and others, to ensure that we sustain a healthy 
dialogue with and our responsiveness to the public we serve.
    We also believe that it is vitally important that Federal 
agencies act as a cohesive and integrated Federal team, given 
the complexity of the issues that span multiple State and local 
governments. I am pleased to report to you today that we are a 
very cohesive team. These members sitting in this panel and 
many others talk to each other all the time.
    Our coordination with the Fish and Wildlife Service, for 
example, has been extremely successfully. Our team approach to 
the ESA consultation has allowed both the Corps and the Fish 
and Wildlife Service to reduce review times to a duration no 
one would ever have imagined.
    We personally rely on the NOAA for not only near-term 
weather forecasts but also long-term forecasts to help manage 
the risks I mentioned earlier.
    We rely on the USGS and their gauges to get accurate and 
timely data on stream flow, and we use their gauges and their 
information on our lakes. That is something that we have worked 
hard to do.
    We are also working hard with the Department of Homeland 
Security and the Department of Energy in anticipation of 
possibly having to exercise our authorities under Public Law 
8499, should the crisis call for those actions. These are just 
a few examples.
    Water resources challenges are here to stay, and I would 
like to address, for just a second, Mr. Boozman's point earlier 
about solutions and not problems.
    Two actions which we are taking today to help shape the 
future are, first, as most of you know, we have begun our 
efforts to update our water control manuals and, second, I 
would like to give a few seconds on another initiative which we 
began about a year ago, which we believe may help.
    Our current water control plans are the most important 
management tool that water managers have. We have now begun the 
process on both the ACT and ACF. Notice of intent has been 
filed in the Federal Register, and the process will be about a 
two to three-year, very open, public process and in complete 
compliance with NEPA.
    The second action which we have taken, almost a year ago, I 
introduced a concept which we call the Southeast Regional Water 
Resource Council. It is somewhat mirrored after the Western 
States Water Council, which would be a State-led forum to 
develop a regional vision for integrated solutions to water 
resource challenges in the southeast.
    My intent was to establish a process whereby the Corps and 
other Federal partners could ensure our programs and priorities 
are in concert with States' needs and priorities across the 
region and to foster a more collaborative and consistent effort 
for development and use of water resources in the region. This 
would also help us define Federal and State responsibilities.
    We are now in the process of sharing this concept with the 
States, the Southern Governors Association, other Federal 
partners and stakeholders. Working regionally with the States 
on water issues in the southeast represents a new way of doing 
business, but we have found that States and stakeholders are 
receptive to exploring the regional water council concept 
further.
    Madam Chair and Committee Members, the south is a national 
resource. We need to turn the challenges of this drought into 
an opportunity to shape the future for all of the citizens of 
this great section of our Country.
    Madam Chair and Members of the Subcommittee, I appreciate 
again the opportunity to testify, and I thank you again for 
your support for our magnificent Army. Thank you.
    Ms. Johnson. We will now hear testimony from Mr. Sam 
Hamilton of the U.S. Fish and Wildlife Service.
    Mr. Hamilton. Madam Chair, Members of the Subcommittee, 
thank you for giving us the opportunity to testify today on 
behalf of the Department of the Interior.
    I am Sam Hamilton, Regional Director of the U.S. Fish and 
Wildlife Service's Southeast Region, a ten-State region that 
includes the Caribbean. The Fish and Wildlife Service is the 
principal Federal agency responsible for conserving, protecting 
and enhancing fish, wildlife and plants and habitats for the 
American people.
    As you have heard already, we are in a record drought, 
entering the third year. This had a profound effect not only on 
the economies of the southeast but also the environment.
    I want to briefly focus on some key basins, but before I do 
that I want to mention a few items related to the Fish and 
Wildlife values in this part of the world. Rivers and streams 
are really the circulatory system of our Nation. They provide a 
variety of services: clean drinking water, recreational 
opportunities, transportation, hydropower and food.
    The southeast is blessed with the highest biodiversity, 
aquatic biodiversity, in North America. But, again, it 
represents the most imperiled group of species in the United 
States. Two-thirds of the Nation's freshwater mussels are at 
risk of extinction. One in ten may have already vanished 
forever. Forty percent of the fish in these river systems are 
at risk.
    So rivers and streams are not only valuable for the economy 
to the southeast, but overall they are an indicator of the 
health of the environment, and it really became magnified in 
the drought that we are facing today.
    The ACF, as you have heard a lot about, drew a lot of 
public attention, an unfortunate mischaracterization of mussels 
versus people.
    This is really a classic example of people versus people, 
upstream and downstream, States versus States, a 20-year 
discussion, that has been underway. Some view it as a water 
war.
    We work very closely with the Army Corps of Engineers. In 
my 30 years of working for the United States Fish and Wildlife 
Service, we have never worked more closely with the Corps on an 
issue like this.
    The Department's role is to ensure that there is a balanced 
approach so that threatened and endangered species, in 
particular, are not jeopardized as we are charged by Congress.
    We work very closely with Federal agencies and States, the 
EPA, USGS, NOAA, and we began consulting on the ACF in the 
1990s as some of these species were listed. We worked very 
closely even dating back to the 1980s with the Corps on the ACF 
system.
    We have done a few items to be proactive when it comes to 
conservation and other planning in the ACF Basin. We provided 
funding for some agricultural retrofitting to conserve water, 
streamlined protocols for reservoir reviews, assisted in the 
development of water supply protocols, and we have passed to 
the State of Georgia $130,000 for habitat conservation planning 
for endangered species.
    The need for this became all too apparent as we entered the 
drought of 2007.
    Working with the Army Corps of Engineers and other 
agencies, we evaluated the interim operating plan of 2006 and 
wrote a non-jeopardy biological opinion for endangered mussels 
and the Gulf sturgeon.
    In 2007, the drought worsened and working very closely in a 
team approach with the Army Corps and others, an emergency 
drought plan was developed, and we consulted in record time on 
that. Typically, we have 135-day consultations under the 
Endangered Species Act. We did this one in 15 days, recognizing 
the emergency situation that we were facing.
    As you well know and as you have mentioned, Secretary 
Kempthorne has led an ongoing discussion with the governors in 
the three States in an attempt to work through these issues, 
and we spent a considerable amount of time working in that 
arena.
    On June 1, we expect to update our biological opinion, 
working with the Army Corps as they revise the plans that they 
have in place to deal with the current hydrology that is out 
there.
    The drought not only affects the ACF, it affects the ACT 
system which starts in Georgia and flows to Mobile Bay. We work 
with the Federal Energy Regulatory Commission, Alabama Power, 
the Corps and the State of Alabama and on the Duck River we are 
working very closely with TVA in Tennessee.
    The drought is very pronounced in south Florida, we are 
working with the Army Corps and the State of Florida on Lake 
Okeechobee and Loxahatchee National Wildlife Refuge.
    The final area is South Carolina and North Carolina which 
are facing devastating droughts in that part of the world as 
the City of Raleigh struggles with its water supplies, and we 
are working very closely with them.
    The Department of the Interior has been very active on 
water issues since the eighties with expertise and resources. 
There has been unprecedented collaboration between the Federal 
agencies to try and deal with these issues.
    These record droughts are occurring, it appears, more 
frequently, and the increasing demands on the water that are 
there are pretty well documented. How we choose to deal with 
these finite resources in the future is going to be critical to 
the future not only of the economies of this part of the world 
but certainly the environment, and they go hand in hand.
    Madam Chairwoman, thank you for the opportunity to speak 
today, and I will answer questions at the appropriate time.
    Ms. Johnson. Thank you very much, Mr. Hamilton. We 
appreciate it.
    Finally, now we will hear testimony from Mr. John Feldt, 
the Hydrologist from NOAA, National Weather Service Southeast 
River Forecast Center.
    Mr. Feldt. Well, good morning, Madam Chairwoman and Members 
of the Committee. Thank you for inviting me to present NOAA's 
role in coordinating and providing climate and drought 
information to Federal agencies and States.
    I am the Hydrologist-in-Charge of NOAA's National Weather 
Service Southeast River Forecast Center. I have been directly 
involved in forecasting either weather or water for the 
National Weather Service for over 30 years now.
    Today, I will discuss the recent and ongoing severe drought 
in the southeast. I will then focus briefly on the new National 
Integrated Drought Information System or NIDIS.
    In the most general sense, drought refers to a period of 
time when precipitation levels are abnormally low, affecting 
human activity and the environment. Primary effects of drought 
may include water shortages and crop, livestock and wildlife 
losses. Droughts may also cause secondary effects on areas such 
as tourism, commodity markets, transportation, wildfires, 
insect epidemics, soil erosion and hydropower.
    Drought is normal. It is a recurrent feature of climate and 
occurs almost everywhere, although its features vary from 
region to region.
    As you know, the southeast region of the United States has 
been in the midst of an exceptional drought for a little over 
two years now. Just about every day, people ask me, when is 
this drought going to end?
    While we do not know how much longer this particular 
drought in the southeast will last, there are two things that I 
personally look at quite closely. Number one is the average 
length of exceptional drought, and the second factor is the 
prevailing climate signal.
    In the past, exceptional droughts have typically lasted 
between two and three years. However, it is important to know 
that a few droughts have lasted nearly four years.
    In addition, over the past year, NOAA has been monitoring a 
La Nina episode which is an unusual cooling of ocean 
temperatures in the equatorial Pacific. A La Nina episode 
typically results in dry weather across the southeast U.S., 
especially from the central part of Georgia and Alabama on 
further south into Florida.
    Climate models now show a trend out of this La Nina event 
into neutral conditions either late this spring or this summer. 
The recent U.S. seasonal drought outlook for February through 
May predicts some improvement in the southeast drought 
condition.
    NOAA's National Weather Service has been providing 
information to key decision-makers in support of drought 
management activities since the onset of the drought. The 
National Weather Service weather forecast offices have been 
attending local and State drought management meetings and 
providing hydrometeorological support and forecast information.
    My office, the Southeast River Forecast Center, has been 
front and center in providing ongoing hydrometeorological 
support to the U.S. Army Corps of Engineers, the USGS and 
numerous other Federal, State and local decision-makers.
    My office has also developed several new tools that provide 
critical information and direct support of drought operations 
for State, Federal Government agencies, the media and the 
private sector.
    These include a product called the Critical Water Watch and 
the Southeast RFC Journal which are issued on a weekly to 
biweekly basis to convey technical information relating to 
critical water supply users. We also issue a weekly Water 
Resources Outlook which is a 15-minute multimedia presentation 
where NOAA meteorologists and hydrologists provide expertise 
and forecast information directly to key decision-makers.
    These are just a few of the many examples of the work that 
NOAA does both locally and regionally to provide climate and 
drought information.
    I would now like to very briefly focus on a new tool that 
is in development and helping the Nation better prepare for and 
respond to the effects of drought, the National Integrated 
Drought Information System or NIDIS.
    NIDIS is envisioned to be a dynamic and accessible drought 
risk information system. The explicit goal of NIDIS is to 
enable society to respond to periods of short-term and 
sustained drought through improved monitoring, prediction, risk 
assessment and communication.
    Over the next five years, NIDIS will build on the successes 
of the tools and products provided by NOAA to close the gap 
between what is currently available and what is needed for 
proactive drought risk reduction. Just one example would be 
that municipalities and State agencies will have improved 
drought information and forecasts when allocating both domestic 
and industrial water usage.
    Water resource managers will have access to more 
information when balancing irrigation water rights with the 
needs of wildlife, and farmers will be better positioned to 
make decisions on what crops to plant and when to plant them.
    While NOAA is the lead agency for NIDIS, NOAA works with 
numerous Federal agencies, emergency managers and planners, 
State climatologists and State and local governments to obtain 
and use drought information.
    Several efforts are underway to improve drought early 
warning systems. These include coordinating interagency drought 
monitoring and forecasting. NIDIS also provides a framework for 
coordinating the research agenda among participating agencies.
    Thank you for the opportunity to discuss drought conditions 
in the southeast and NOAA's role in coordinating and providing 
climate and drought information to Federal agencies and States. 
I would be happy to answer any questions you or other Members 
of the Committee may have.
    Ms. Johnson. Thank you very much for your testimony.
    We will proceed now with questions.
    General Schroedel, you said in your testimony that the 
Corps' near-term strategy for addressing the drought is 
updating water control plans. What specific changes to the 
plans are needed and what will be the biggest difference 
between the updated plans and the current plans?
    General Schroedel. Yes, ma'am. The biggest need, after 
several decades of not being updated, is the first step, which 
is a basin-wide EIS. The hydrology has changed, the ecosystems 
have changed, and the demands on the water have changed. The 
entire situation has changed.
    So it is important that we start with a basin-wide EIS, 
gather all the facts in a very open and public process. That 
will enable us then as a part of that process to generate 
suitable alternative operations approaches to then balance 
those competing needs, as I mentioned.
    So I would say that the basin-wide EIS is the critical 
first step just to get a good handle on what is really going 
on.
    Ms. Johnson. Thank you very much.
    This question is for Mr. Hamilton. You mentioned that there 
are many competing uses for water in the ACF Basin, including 
irrigation, public water supplies, industrial uses and for 
endangered species. How much water is currently available for 
endangered species and how much is needed to be sufficiently 
protective?
    Mr. Hamilton. The endangered species in the Apalachicola 
system are three listed mussels and the Gulf sturgeon.
    We have consulted with the Army Corps in the last year and 
looked at the required flows for those species. What we found 
was that the historic numbers that we had looked at, 5,000 cfs, 
had only been reached one or two times in the history of 
recorded time in the Apalachicola.
    Recognizing that we were in an exceptional drought and 
using the full flexibility that we had in the Endangered 
Species Act, we consulted and wrote an opinion that enabled the 
Corps to drop those flows to 4,500 cfs, which is a 10 percent 
reduction at unprecedented levels.
    What we don't know right now is, if you continue to do that 
over an extended period of time, will that jeopardize the 
future existence of that species?
    We also wrote an opinion looking at the Gulf sturgeon, 
using the higher spring flows like today, when you have flows 
exceeding forty and fifty thousand cfs hitting the Apalachicola 
Bay. I believe our numbers that we were identifying range 
between 11,000 and 16,000 cfs for spawning flows for the Gulf 
sturgeon.
    Ms. Johnson. Thank you very much.
    Let me just ask each of you to comment. There is a water 
shortage around the world, not just in the southeast U.S. Do 
you know whether or not this has been an understood and 
accepted thing in the planning of these three States together?
    Mr. Weaver. Personally, I do not know if they have accepted 
that fact in their planning.
    General Schroedel. Ma'am, I would just offer that given how 
rapidly Georgia, for example, just passed their water plan and 
the same actions are being taken by all three governors and 
other governors around the south, I frankly think everyone has 
recognized that this is a huge problem we have to deal with 
now.
    My personal opinion is that there is probably a lot of 
water out there we are not capturing. Maybe that is what we 
need to take a look at.
    So I think they all recognize that.
    Mr. Hamilton. I would have to agree. I think you see it in 
the discussions we have had. You have seen it in the plans that 
all three States have enacted, very much recognizing that these 
droughts are occurring frequently and with increased demand. So 
you are seeing more and more discussion on conservation 
measures and actually implementing some.
    Mr. Feldt. Madam Chair, I think that is out of my area of 
expertise, so I would like to defer on that question.
    But I would like to point out that it is interesting just 
recently, just last week in our office, we were actually 
looking at some flooding over parts of the southeast at the 
same time as we are working drought. So water can be very 
complicated. Sometimes you can have very close to one area in 
extreme drought, other areas could have floods.
    Ms. Johnson. Thank you very much.
    I am going to now recognize Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    I am curious as to what we have really learned from this. 
You can't really plan. I guess you can, but it is very 
difficult for an entity like this that just hasn't happened in 
a long, long time as far as the severity of the drought.
    Mr. Feldt, they try and forecast the weather and things. An 
example of that would be did you feel like your forecasts were 
good and then did you all use them? Did you change anything 
and, really, do we have the ability to do that with the current 
structure?
    You mentioned, General Schroedel, that you are implementing 
a rewrite of the plans and all that stuff, but the reality is 
that is probably going to take years. Do we have the ability? 
Even though we are in a crisis situation, are we still using 
old plans based on the knowledge, hopefully, that we have 
learned for the last year or two?
    General Schroedel. Yes, sir. I would tell you that the 
process of managing the systems is a very dynamic process. It 
is a day to day, hour by hour process of our experts, many of 
whom have been doing this for three or four decades, processing 
and assimilating all the information they can to make timely 
decisions, and we are very flexible in how we do that. This 
isn't a cookbook solution to managing these reservoirs, not 
even in the least.
    A good example would be we were prepared in the October 
time frame to reduce the flows out of Lake Allatoona, just as 
an example, the right thing to do based on how we normally 
manage and what our manuals say. We were about to go below zone 
one into zone two, which normally our operations guys would 
direct. Cut the flow from two hours of power to one hour of 
power.
    Then, as a result of realizing that there are other needs 
downstream and the forecast that we got from NOAA that said, 
wait a minute, the 100 degree temperatures in September are 
going to sustain themselves into October, which was rare.
    We said, wait a minute, for cooling purposes and water 
quality purposes, we cannot reduce the flow out of Allatoona at 
that point because we have another concern, which we got the 
heads-up again from NOAA that tipped us off, and then we 
adjusted. So we actually made that decision about two weeks 
later than we normally would based on that information.
    Mr. Boozman. So that is something you have learned. A 
couple years ago, you wouldn't have done that, perhaps.
    General Schroedel. I am not sure I would say that.
    Mr. Boozman. Hopefully, you are a little bit, and I don't 
mean this bad, but a little more conservative in the water use.
    General Schroedel. Perhaps.
    Mr. Boozman. Mr. Hunter mentioned the discharges. He was 
concerned about the discharges now that are going on. Can you 
tell us why you are doing that or if that is under the old 
manual?
    General Schroedel. No, sir. Again, that is a part of the 
dynamic balancing process. We treat the entire system as a 
system.
    A very important point with respect to the water supply 
needs, if you will, of Atlanta and water quality needs of 
Atlanta is that water is not drawn out of Lake Lanier. It is 
drawn out of the rivers south of Buford Dam, which means it is 
necessary to release water from Lake Lanier through the dam to 
satisfy both the water supply needs of Atlanta and the water 
quality needs as measured at Peachtree Creek.
    We are about to exercise our authority in line with 
Congressionally authorized legislation for Buford that says we 
can reduce the water quality flow requirement from 750 cfs at 
Peachtree Creek to 650 cfs. So we are about to reduce the flow 
for water quality by about 100 cfs. Then that is the limit, 
based on the legislation, that we could go to.
    The remainder of the flow, you combine intervening flow, 
the rain that hits and flows into the river south of Buford and 
between Peachtree Creek, and then we figure out on a day to day 
basis--actually it is on a weekly basis--how much water needs 
to be released out of Lanier to make up the difference to 
supply those needs south of Lanier.
    Some of the concerns that we are well aware of, Georgia 
Trout Hatchery which requires 538 cfs, which is south of Buford 
again and then the water quality piece in Atlanta. Those are 
the only reasons right now water is being released from Lanier, 
to satisfy those needs.
    Mr. Boozman. Is that transparent where people can actually 
know what is going on?
    General Schroedel. Yes, sir, absolutely. That is something 
that we have celebrated quite a bit.
    With these drought calls that we conduct every week on the 
ACT and biweekly on the ACF, we inform all of those people who 
call in on those calls, what decisions we are about to make, 
what flows, what adjustments we are making to the system, and 
then we explain to them why. Then everyone who is on the call 
has a chance to chime in with their concerns.
    Then, of course, we make sure that we do not violate the 
FACA laws in terms of participation in Federal decision-making. 
So we are very deliberate in how we run that process, but we 
have learned more.
    Also, we have a web site. I am just reminded. We have a 
very detailed web site that we maintain every day. So, 
absolutely transparent, yes, sir.
    Mr. Boozman. Let me just ask one other thing, and then we 
have some questions we would like to submit for you that you 
can fiddle with at your leisure for all of you.
    General Schroedel. Sure. Okay.
    Mr. Boozman. Does the Corps need any Congressional guidance 
or authority to better manage the reservoir system with the 
contemporary needs?
    The contemporary needs being that we have a situation now 
with Atlanta being on board. Certainly, I don't think anybody 
could envision an area of that large a population 20 years ago 
or 30 years ago, whenever all these things came about, longer 
than that.
    If so, do you need Congressional guidance or do you need 
more authority?
    General Schroedel. Sir, at this point, I think our general 
opinion is that we do not need any additional guidance or 
authority. It is pretty well laid out.
    Mr. Boozman. Is there anything we need to be doing?
    General Schroedel. Sir, at this point, I do not believe so.
    Mr. Boozman. Okay.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you.
    General, let me ask, how could more water be captured for 
the ACF system?
    General Schroedel. Madam Chair, one option might be 
additional storage. Of course, when I say storage, there are 
options above ground, below ground, and you have already heard 
a little bit about the geology that underlies the region, which 
makes it very difficult for an aquifer recharge, for example.
    I am reminded that the 1945 Rivers and Harbors Act 
authorized three flood control projects on the Flint River. 
Today, there are, I believe, three dams on the Flint River or 
two that I know of, Crisp County Dam and Albany Dam which are 
very small and do not provide any flood protection.
    But then again, I am reminded that WRDA 1986 de-authorized 
those projects. Those would be the only way that I could think 
of that you could actually flexibility in the management of the 
ACF as a system. Today, we have no control over the Flint 
system.
    We talked about 5,000 cfs at the Chattahoochee gauge. 
Today, we are releasing 30,000 cfs, and it may not be the right 
amount at the right time, but that is basically all that I can 
see that we could do.
    Ms. Johnson. You mentioned lowering the flow rate at 
Peachtree Creek. Does that mean that the water quality 
downstream would be affected?
    General Schroedel. No, ma'am. We would not be able to do 
that. We went through the proper NEPA work to do that, so the 
FONSI will be signed and then completing the NEPA work.
    So, no, ma'am, not at all. We would not do that.
    Ms. Johnson. Thank you very much, General.
    Mr. Westmoreland. Thank you, ma'am.
    General Schroedel, you made the comment about the Flint 
impoundments. So that is something that Congress could do is to 
look at why, in 1986, the WRDA Bill cut those two impoundments 
out because I think you agree with me from just what you have 
said, that we need to do some type of study on that again, a 
feasibility study to see where we are at.
    General Schroedel. Yes, sir. I would say if the States saw 
that as something that would be essential, then that would be a 
good action to take.
    Mr. Westmoreland. Yes, sir.
    Mr. Hamilton, do you know what the natural flows of the 
Chattahoochee and the Flint were?
    Mr. Hamilton. I don't have those figures offhand. When you 
say natural, I am assuming that is pre-dam.
    Mr. Westmoreland. Yes.
    Mr. Hamilton. The figures that I am aware of are post-dam 
that range from 178,000 cfs in the springtime to lows of about 
5,000 on the most part, so a wide-ranging amount of water.
    But maybe USGS might have some information on the historic 
flows.
    Mr. Westmoreland. Mr. Weaver, do you have any information 
on what the normal pre-dam flow was?
    Mr. Weaver. We actually published a report in about 1995 
which listed the pre and post-dam flows, which I could provide 
to the Committee. We looked at the period from 1929 to 1957 and 
from about 1957 to 1970 and 1970 to 1993.
    Mr. Westmoreland. I think that would be interesting to get 
those.
    Mr. Hamilton, let me ask you a question. Do you think the 
sturgeon and the mussel would do better in a natural 
environment that they had than this man-made environment that 
we are creating today with the flows?
    Mr. Hamilton. That is a complex question. Obviously, they 
did well before all the pressures on the water systems that we 
have out there, and it is not just water supply. It is water 
quality, habitat throughout their range.
    Those species require high flows and low flows, and have 
all been affected in various ways, so populations have 
dramatically declined over time. There are those that are 
endangered and on the verge of extinction and those that are 
threatened and on the verge of becoming endangered.
    So I would say obviously they would do better.
    Mr. Westmoreland. But, normally, species do better in their 
normal environment than a created environment.
    Mr. Hamilton. Correct.
    Mr. Westmoreland. I have so many questions.
    General Schroedel, the Corps, how does it related to the 
FERC agreements because of the power plants up and down the 
Chattahoochee?
    How does the Corps and the FERC line up as far as FERC 
guaranteeing a certain amount of flow through an area and the 
Corps actually managing the river? How does that work?
    General Schroedel. Sir, it works in a couple of different 
ways.
    If I could use the Alabama Power reservoirs on the ATC as 
an example, they are currently up for relicensing. In the 
process of that relicensing, as the Alabama Power projects go 
through the NEPA process and go through that whole licensing 
process, they will consult with the Corps to determine what 
sort of flows are required in the aggregate from those projects 
to meet a navigation requirement, south of Montgomery in this 
case of 4,640 cfs. Then FERC, in this case, will generally 
memorialize those flows into their licensing process.
    Mr. Westmoreland. I guess what my question is who has the 
authority to regulate the flows, the FERC or the Corps?
    General Schroedel. It is the FERC.
    Mr. Westmoreland. FERC?
    General Schroedel. Yes, sir.
    Mr. Westmoreland. Okay.
    General Schroedel. They lay that out as part of the 
licensing process.
    Mr. Westmoreland. Okay. So they can require the Corps to up 
their flow?
    General Schroedel. They require the Alabama Power.
    Mr. Westmoreland. That is what I wanted to hear, okay.
    General Schroedel. Then also through the Fish and Wildlife 
Service for endangered species, for example, at Jordan Dam, 
that would be done.
    Mr. Westmoreland. So if the flow is not meeting what FERC 
promised or what was in their permit, then they need to 
increase the flow out of their lakes to make up for that?
    General Schroedel. There is a way to enforce that, yes, 
sir.
    Mr. Westmoreland. Okay. Now the last thing is Chairwoman 
Johnson asked about the updating of the manuals, and you 
mentioned two decades. If I remember correctly, the last manual 
that was approved and went through the full process of being 
approved was in 1957.
    General Schroedel. Yes, sir. We have been operating with a 
1989 draft.
    Mr. Westmoreland. Fifty years.
    General Schroedel. Yes, sir.
    Mr. Westmoreland. So, Madam Chairwoman, I am going to say 
that there is something that Congress can do.
    When you have had the growth up-river and in that basin and 
let me also point out that the Chattahoochee and the Flint, for 
some people who don't understand, originate in Georgia. The 
Chattahoochee originates above Helen. The Flint originates just 
a little bit south of Atlanta.
    These manuals have not been updated in 50 years and, Madam 
Chair, let me say this too, that there are Senators over in the 
other body that are trying to prevent them from being updated 
today. That is a disgrace. That is something we need to stop, 
and that is something we need to work towards to make sure that 
the Corps has everything, every tool in their arsenal to come 
up with an updated water plan.
    Madam Chair, I yield back the balance of my time.
    Ms. Johnson. Thank you very much.
    We have no further questioners, and so I declare that the 
hearing has concluded.
    Thank you so very much for being here.
    I look forward to the governors and all getting together 
and coming up with a good plan and solving the problem.
    [Whereupon, at 12:05 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
